     SECURITY CONTROLS OVER CONTRACTOR SUPPORT
               FOR YEAR 2000 RENOVATION


Report No. D-2001-016               December 12, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ASD(C3I)              Assistant Secretary of Defense (Command, Control,
                        Communication, and Intelligence)
COTS                  Commercial-Off-The-Shelf
DITSCAP               DoD Information Technology Security Certification and
                        Accreditation Process
Y2K                   Year 2000
                       Office of the Inspector General, DoD
Report No. D-2001-016                                               December 12, 2000
  (Project No. D1999AS-0052.01)

                 Security Controls Over Contractor Support
                          For Year 2000 Renovation

                                  Executive Summary

Introduction. In a memorandum to the Inspector General, DoD, the Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence)
expressed concerns that system owners and users may have created increased
vulnerabilities to the Defense information infrastructure and to operational readiness
during the year 2000 renovation processes. The Assistant Secretary asked the Inspector
General, DoD, to monitor the adherence of DoD Components to the information
security requirements of the Office of the Secretary of Defense. As of March 2000, the
DoD year 2000 database identified 889 renovated mission-critical systems.

We conducted the audit in two phases. In phase one, we reviewed DoD policies on the
use of identification and authentication controls to access information systems. In phase
two, we reviewed security controls at selected locations.

Objectives. The purpose of the audit was to determine user adherence to DoD
information systems security policy during and after year 2000 renovation efforts. In
phase one of the audit, we reviewed identification and authentication policy within DoD
and issued Inspector General, DoD, Report No. D-2000-058, “Identification and
Authentication Policy,” December 20, 1999. In phase two, we reviewed
implementation of security controls at selected locations. Specifically, we reviewed
controls over contractors that performed year 2000 renovations on a sample of
159 mission-critical systems.

Results. DoD Components used techniques, such as access controls, configuration
management, and code verification and validation, to monitor and control contractor
access to the 159 mission-critical systems in our sample that were renovated by contract
personnel during the year 2000 renovation effort. However, the cognizant DoD
Components did not assess risk for 103 of those 159 systems and did not reaccredit
119 systems. As a result, at least seven DoD Components were not assured that
documented security postures were valid. Further, potential risks to the mission-critical
systems were unknown and the systems may be exposed to increased risk of
unauthorized access and modification.




                                            i
Summary of Recommendations. We recommend that the Chief Information Officers
of the Army, Navy, Air Force, Marine Corps, Defense Information Systems Agency,
Defense Logistics Agency, and Washington Headquarters Services:

     • Assess the potential risks to the security baseline requirements for renovated
       systems for which risk assessments are lacking.

     • Accredit or reaccredit renovated systems in accordance with DoD
       Instruction 5200.40, “DoD Information Technology Security Certification and
       Accreditation Process.”

Management Comments. The Department of the Air Force concurred with the
finding and recommendations, and stated that the designated approving authorities will
complete security risk assessments and the certification and accreditation process.
Washington Headquarters Services has begun to take actions to assess the potential risk
to the security baseline for the 20 systems that contractors renovated for the year 2000
and to transition to the DoD Information Technology Security Certification and
Accreditation Process. Washington Headquarters Services recognizes the importance
of continuously assessing risk and understands that all of its components need to be
certified and accredited to maintain the information assurance and security posture of
the Defense Information Infrastructure. The Military Traffic Management Command
concurred with the report and stated that it was in the process of accrediting or
reaccrediting their systems. Refer to the Finding section of the report for the complete
discussion of management comments and to the Management Comments section for the
complete text of the management comments.

Audit Response. Washington Headquarters Services comments did not indicate a
concurrence or nonconcurrence. However, based on actions taken or planned, we
consider the comments to be fully responsive.

Management Comments Required. The Army, Navy, Marine Corps, Defense
Information Systems Agency, and Defense Logistics Agency did not respond to a draft
of this report dated September 21, 2000. Accordingly, we redirected the
recommendations to their respective Chief Information Officers. We request comments
to the final report by February 12, 2001.




                                           ii
Table of Contents

Executive Summary                                            i


Introduction
     Background                                              1
     Objective                                               2

Finding
     Certifying and Accrediting Information Systems After
           Year 2000 Renovation                              3

Appendixes
     A. Audit Process
         Scope                                               8
         Methodology                                         9
         Management Control Program Review                   9
         Prior Coverage                                     10
     B. Renovated Systems Sampled                           11
     C. Techniques to Monitor Contractor Renovations        19
     D. Report Distribution                                 21

Management Comments
     Department of the Air Force                            25
     Washington Headquarters Services                       26
     Army Military Traffic Management Command               28
Introduction
           In a memorandum dated May 5, 1999, the Assistant Secretary of Defense
           (Command, Control, Communications, and Intelligence) (ASD [C3I]) expressed
           concerns that system owners and users may have created increased
           vulnerabilities to the Defense information infrastructure and to operational
           readiness during the year 2000 (Y2K) renovation processes. The ASD (C3I)
           asked the Inspector General, DoD, as part of ongoing audits, to monitor DoD
           Components’ adherence to the Office of the Secretary of Defense (OSD)
           information security requirements and specifically addressed requirements
           relating to identification and authentication controls outlined in OSD
           Administrative Instruction (AI) 26-1.

           In phase one of this audit, we reviewed DoD Component policies on the use of
           identification and authentication controls to access information systems. A
           comparison of the status of Service Component and Defense Agency policies
           and the requirements of AI 26-1 is discussed in Inspector General, DoD, Report
           No. D-2000-058, “Identification and Authentication Policy,”
           December 20, 1999.

           In phase two, we focused on the application of security controls over
           contractor-performed Y2K renovations. We selected a sample of mission-
           critical systems and developed a questionnaire to determine the techniques DoD
           Components used to monitor and control contractor access during and after Y2K
           renovations. See Appendix A for a discussion of the sample selection process
           and the contents of the questionnaire.

Background
           The Y2K renovation efforts exposed DoD mission-critical systems to many
           threats and vulnerabilities. According to the Department of Defense Year 2000
           Management Plan, September 1999, Appendix B, the Y2K renovation efforts
           provided an opportunity to introduce or exploit existing vulnerabilities within
           any information system or network. Such vulnerabilities could be used to attack
           the information, information systems, and networks that comprise the DoD
           information infrastructure and allow opportunities to implant backdoor software
           routines1 or malicious code,2 such as viruses3 and worms.4 The Y2K renovation

1
    Backdoors are hidden network utility programs that allow the removal of computer system controls.
2
    Malicious software or code is software written to cause damage or deplete resources of the target
    computer.
3
    Viruses are software programs that are capable of replication and capable of wreaking great harm on a
    system. Viruses first copy themselves to additional program files, infect the system programs, and
    modify the programs to include a possible evolved copy of the virus.
4
    Worms may replicate through an entire network, consuming computer resources, such as memory and
    bandwidth, and slowing down computers and servers.



                                                      1
    process required considerable contractor support and allowed contractors to gain
    full access to DoD information systems undergoing renovation. The Y2K
    renovation effort also provided Government personnel, and others associated
    with Y2K testing and evaluation, with increased access to mission-critical
    systems.

    Year 2000 renovated systems are subject to DoD Directive 5200.28, “Security
    Requirements for Automated Information Systems (AISs),” March 21, 1988,
    which provides for reaccreditation of information technology systems that
    undergo changes to the associated environment. Additionally, DoD
    Directive 5200.40, “DoD Information Technology Security Certification and
    Accreditation Process (DITSCAP),” December 30, 1997, prescribes the security
    accreditation for information technology systems. The security posture of the
    defense information infrastructure depends on certifying and accrediting systems
    for effective information security.

           Certification. Certification is the comprehensive evaluation of technical
    and nontechnical security features of an information system made in support of
    the accreditation process. Certification establishes the extent that a particular
    system design and implementation meet specified security requirements.

           Accreditation. Accreditation is the formal security declaration by an
    authorized official to approve the operation of an information technology system
    or network. The accreditation describes the definitive baseline of security
    operations and the particular security mode using a prescribed set of safeguards.
    Accreditation is based on security assumptions that tie certified hardware and
    software of each system to the configuration of the computing environment.

Objective
    The audit objective was to determine user adherence to DoD information
    systems security policy during and after Y2K renovation efforts. We reviewed
    implementation of security controls at selected locations. Specifically, we
    reviewed controls over contractors that performed Y2K renovations on mission-
    critical systems. See Appendix A for a discussion of the audit scope,
    methodology, and a summary of prior coverage related to the audit objective.




                                        2
            Certifying and Accrediting Information
            Systems After Year 2000 Renovation
            DoD Components used various security measures, such as access
            controls, configuration management, and code verification and
            validation, to control and monitor contractor access to 159 mission-
            critical systems during the year 2000 (Y2K) renovation process.
            However, 7 of the 8 DoD Components with systems in our sample did
            not assess the potential risk related to the renovation efforts for 103 of
            159 contractor-renovated systems and did not reaccredit 119 systems.
            The condition existed because DoD personnel did not adhere to
            established defense information security policies and procedures relating
            to system modifications. As a result, DoD Components were not
            assured that documented security postures were valid. Further, potential
            risks to the mission-critical systems were unknown and the systems may
            be exposed to increased risk of unauthorized access or modification.

DoD Mission-Critical Systems
     Y2K Contractor-Renovated Mission-Critical Systems. As of March 2000,
     the DoD Y2K database identified 889 Y2K renovated mission-critical systems.
     We reviewed a sample of mission-critical systems to determine how DoD
     monitored and controlled contractor access to the systems during the Y2K
     renovation process. We focused on 159 systems that were contractor-renovated
     or renovated using a combination of government and contractor personnel. See
     Appendix A for details on the DoD Y2K database, the sample selection process,
     and a description of the sample reviewed. Appendix B provides a list of the
     159 systems reviewed and Appendix C provides details on the techniques DoD
     Components used to monitor contractor renovation of the 159 systems.

Certification and Accreditation Process
     DoD Components did not assess the potential risk related to the renovation
     efforts for 103 of 159 contractor-renovated systems and did not reaccredit
     119 systems. The DoD Instruction 5200.40, “DoD Information Technology
     Security Certification and Accreditation Process,” December 30, 1997, outlines
     the security certification and accreditation process for unclassified and classified
     information technology. The DITSCAP is composed of four phases: definition,
     verification, validation, and post accreditation.

     The definition phase focuses on understanding the mission, environment, and
     architecture to determine the security requirements and level of effort required
     to obtain accreditation and establishes a certification schedule. The agreement is
     documented in the System Security Authorization Agreement. The verification
     phase focuses on producing a system that is ready for certification testing, while
     the validation phase confirms the compliance of the system with the information


                                          3
    contained in the System Security Authorization Agreement. The validation
    phase provides the evidence required to support the system accreditation. The
    definition, verification, and validation phases are repeated as often as necessary
    to obtain an accredited system. The post accreditation phase includes those
    activities necessary for continuing operation of the accredited system in its
    environment and to address changing threats. The objective of this phase is to
    ensure secure system management, operation, and maintenance to preserve an
    acceptable level of residual security risk. The post accreditation phase continues
    until the information system is removed from service, a major change is planned
    for the system, or a periodic compliance validation is required. If the system
    changes or the periodic validation requires, the DITSCAP process starts over at
    the definition phase.

    Status After Y2K. After Y2K renovations, equipment, architecture, security
    requirements previously agreed to and documented in the System Security
    Authorization Agreement were no longer valid. Specifically, DITSCAP
    requires the Information System Security Officer to determine the extent the
    changes affect the security posture of either the information system or the
    computing environment. However, DoD Components did not comply with the
    DITSCAP to reassess the systems security posture subsequent to modifications
    made to the mission-critical systems during Y2K.

Risk Assessments and Post-Accreditation
    Risk Assessments. Risk assessment and risk management are ongoing efforts
    that should be performed throughout system development and renovation
    processes. Risk assessment includes analyzing threats to and vulnerabilities of
    information systems and the potential impact that the loss of information or
    capabilities has on national security. The resulting analyses are used to identify
    appropriate and effective security measures to ensure the protection of
    information. Risk assessments should also consider data sensitivity and integrity
    and the range of risks the systems and data may be subject to, including risks
    posed by authorized internal and external users, and unauthorized outsiders who
    may try to break into the systems. Additionally, such analyses should include
    reviews of systems and network configurations and observations and testing of
    existing security controls. Although DoD Components should periodically
    perform a formal comprehensive risk assessment, risk should be assessed
    whenever there is a change in operation, technology, or outside influences.
    However, on completion of the contractor Y2K renovations, DoD Components
    completed initial or revised risk assessments for only 56 of the 159 mission-
    critical systems renovated. Consequently, the DoD Components responsible for
    the remaining 103 systems were unaware of the risk their systems faced after
    renovation.

    Reaccreditation. Changes in the information system’s configuration,
    operational mission, computer environment, or to the configuration of the
    computing environment may invalidate the original security assumptions and
    mandate reaccreditation. Therefore, as a minimum, DoD should reaccredit its
    automated information system every 3 years and reaccredit the system
    frequently based on system changes and modifications. Of the 56 mission-


                                        4
    critical systems that received initial or revised risk assessments, DoD
    Components reaccredited only 40 of those systems after the completion of the
    contractor Y2K renovations. When asked about the lack of risk assessments,
    accreditations, and reaccreditations, various DoD Components responded that
    they were not aware that the process was required or simply stated that the
    process was not performed. The table below shows the status of risk
    assessments and reaccreditations of mission-critical systems after the contractor
    Y2K renovations. However, until all mission-critical systems are accredited or
    reaccredited, DoD mission-critical systems will remain vulnerable to unknown
    threats.



                         Table 1. Status After Y2K Renovation

                              Contractor           Risk Assessments   Reaccreditation
                              Renovated              Yes     No        Yes      No

      Army                               45            25   20          9       36
      Navy                               34             9   25          9       25
      Air Force                          16             7    9          7         9
      Marine Corps                       14             0   14          0       14
      DISA                               23            15     8        15         8
      DLA                                7              0     7         0         7
      WHS                             20                0   20          0       20


             Total                  159                56   103        40      119


      DISA    Defense Information Systems Agency

      DLA     Defense Logistics Agency
      WHS     Washington Headquarters Services




Conclusion
    Despite successful Y2K changes and modifications, more needs to be done to
    minimize the security risk for renovated systems. All DoD Components that
    renovated systems for the Y2K conversion should consider the results of this
    audit and the security posture of those systems.




                                                   5
Recommendations, Management Comments, and Audit
  Response
    Revised and Redirected Recommendations. Based on the responses received,
    we redirected the recommendation to the respective Component Chief
    Information Officers.

    We recommend that the Chief Information Officers of the Army, Navy, Air
    Force, Marine Corps, Defense Information Systems Agency, Defense
    Logistics Agency, and Washington Headquarters Services:

          1. Assess the potential risks to the security baseline requirements for
    renovated systems for which risk assessments are lacking.

           2. Accredit or reaccredit renovated systems in accordance with DoD
    Instruction 5200.40, “DoD Information Technology Security Certification
    and Accreditation Process.”

    Department of the Air Force Comments. The Department of the Air Force
    concurred with the finding and recommendations. The designated approving
    authorities for the nine Air Force systems identified in the audit will accomplish
    security risk assessments by March 1, 2001, and complete the certification and
    accreditation process by December 1, 2001. The complete text of the Air Force
    comments can be found in the Management Comments section of the report.

    Washington Headquarters Services Comments. Washington Headquarters
    Services has begun to take actions to assess the potential risk to the security
    baseline for the 20 systems that contractors renovated for the year 2000 and to
    transition to the DoD Information Technology Security Certification and
    Accreditation Process. Washington Headquarters Services recognizes the
    importance of continuously assessing risk and understands that all of its
    components need to be certified and accredited to maintain the information
    assurance and security posture of the Defense Information Infrastructure. The
    complete text of the Washington Headquarters Services comments can be found
    in the Management Comments section of the report.

    Audit Response. Washington Headquarters Services comments did not indicate
    a concurrence or nonconcurrence. However, based on actions taken or planned,
    we consider the Washington Headquarters Services comments to be fully
    responsive.

    Military Traffic Management Command Comments. Although not required
    to comment, the Military Traffic Management Command concurred with the
    recommendations and stated that it was in the process of accrediting or
    reaccrediting their systems. The complete text of the Military Traffic
    Management Command comments can be found in the Management Comments
    section of the report.




                                        6
Audit Response. The Military Traffic Management Command has taken
responsive action.

Management Comments Required. The Army, Navy, Marine Corps, Defense
Information Systems Agency, and Defense Logistics Agency did not respond to
a draft of this report dated September 21, 2000. Accordingly, we redirected the
recommendations to their respective Chief Information Officers. We request
comments to the final report by February 12, 2001.




                                   7
Appendix A. Audit Process

Scope
    Work Performed. We obtained a list of the DoD mission-critical systems from
    the DoD Y2K database to determine the number of systems renovated for Y2K.
    According to the Y2K database as of March 2000, DoD Components identified
    889 renovated mission-critical systems. Due to constraints related to resources,
    time and other factors, we excluded from the sample universe intelligence
    systems, systems located at the Joint Staff and Commander-in-Chief locations,
    and DoD Components with less than 10 renovated systems. We identified the
    locations with the most systems and judgmentally selected a sample of systems
    at each location. We selected 330 renovated systems for review.


                             Figure 2. DoD Mission-Critical Systems
                                       Renovated for Y2K


                           59                                 237
                   Commander-in-Chief                     Intelligence
                      & Joint Staff

                                                                    16
                                                              Other Defense
                                                                Agencies
                            577
                       Mission Critical
                          Systems
                                      889 Renovated Systems




    Sample Description. We relied on DoD Components to identify contractor-
    renovated systems, Government-renovated systems, and systems that did not
    require renovation. We provided a questionnaire for each of the 330 systems.
    Of the 330 systems identified, 159 systems were contractor-renovated or
    renovated using a combination of government and contractor personnel,
    122 systems were renovated by government personnel, 37 systems were not
    renovated, and 12 systems were not specifically identified. We reviewed and
    summarized data pertaining only to the 159 contractor-renovated systems. The
    questionnaire identified access controls, background checks, configuration
    management, and code verification and validation as techniques that DoD used
    to monitor and control contractor access during Y2K renovation. We
    summarized the responses to determine how each sampled DoD location
    monitored or controlled contractors used in the Y2K renovation effort.



                                           8
    DoD-Wide Corporate-Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Secretary of Defense
    annually establishes DoD-wide corporate-level goals, subordinate performance
    goals, and performance measures. However, the Secretary of Defense had not
    established any GPRA goals for Information Assurance.

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to the achievement of the following functional area objectives
    and goals:

               Information Technology Functional Issue Area.
               Objective: Ensure DoD vital information resources are secure and
               protected. Goal: Improve acquisition processes and regulations.
               (DoD-5.2) Goal: Assess information assurance posture of DoD
               operational systems. (ITM-4.4)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Information Management and Technology high-risk area.

Methodology
    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from February through August 2000, in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD.

    Use of Computer-Processed Data. To achieve the audit objectives, we relied
    on computer-processed data contained in the DoD Y2K database. Our review of
    system controls and the results of data tests showed an error rate that casts doubt
    on the validity of the data. However, when the data are reviewed in context with
    other available evidence, we believe that the opinions, conclusions, and
    recommendations in this report are valid.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

Management Control Program Review
    We did not review the management control program related to the overall audit
    objective because DoD designated information assurance as a material
    management control weakness in the FY 1999 Annual Statement of Assurance.




                                         9
Prior Coverage

    General Accounting Office

    GAO reports can be accessed over the Internet at http://www.gao.gov.

    GAO Report No. T-NSIAD-00-148, “DoD Personnel: Weaknesses in Security
    Investigation Program Are Being Addressed,” April 6, 2000.

    GAO Report No. AIMD-00-55, “Computer Security: FAA Needs to Improve
    Controls Over Use of Foreign Nationals to Remediate and Review Software,”
    December 23, 1999.

    Inspector General, DoD

    The DoD audit and inspection agencies issued over 200 reports on the DoD
    Y2K conversion, including about 185 reports by the Inspector General, DoD.
    In addition, there have been numerous reports on information security matters,
    although those reports are generally classified or For Official Use Only. The
    text of the releasable Inspector General, DoD, reports is available on-line at
    http://www.dodig.osd.mil.




                                       10
Appendix B. Renovated Systems Sampled

                                                                         Risk
     Component                                              Contractor Assessment Reaccreditation
     Organization System Name                               Renovated Yes No       Yes      No

Army Systems
1  CCSLA1        Army Computer Security Commodity               X        X                   X
                 Logistics Accounting Information
                 Management System
2    CECOM2      Message Switch (SEC)                           X        X                   X
3    CECOM2      Army Switch Program                            X        X                   X
4    CECOM2      ASAS - All Source (BLOCK I) (SEC)              X        X           X
5    CECOM2      ASAS - Comm Control System (BLOCK              X        X           X
                 I) (SEC)
6    CECOM2      ASAS - Remote Work Station (BLOCK I)           X        X           X
                 (SEC)
7    CECOM2      ASAS - SS/EAC (BLOCK I) (SEC)                  X        X           X
8    CECOM2      Cont Central Comp AN/FSC-115, GSC-             X        X                   X
                 63 (SEC)
9    CECOM2      MLRS - Fire Direction Sys, AN/GYK-37           X              X     X
                 (SEC)
10   CECOM2      MSE Network Planning Term AN/UYK-              X              X             X
                 100 (SEC)
11   CECOM2      System Control Center, AN/TYQ-46(V)2           X        X           X
                 (SEC)
12   CECOM2      Satellite Configuration Control Element        X        X                   X
                 An/FSC-91 (SEC)
13   CECOM2      Satellite Communications Set (SCS) (SEC)       X        X                   X
14   CECOM2      Trailblazer, AN/TSQ-138 (SEC)                  X              X             X
15   ILSC3       Standard Depot System                          X        X                   X
16   LOGSA4      Army Airlift Clearance Authority               X              X             X
17   LOGSA4      Army Total Asset Visibility                    X              X             X
18   LOGSA4      DoD Address Directory                          X              X             X
19   LOGSA4      Logistics Intelligence File                    X              X             X
20   LOGSA4      Unit Movement Visibility                       X              X             X
21   LSSC5       Commodity Command Standard System              X        X                   X
22   STRICOM6    Close Combat Tactical Trainer                  X        X                   X
23   MTMC7       Automated Air Load Planning System             X        X                   X




Footnotes/Acronyms defined on pages 17 and 18


                                              11
                                                                        Risk
      Component                                           Contractor Assessment Reaccreditation
      Organization   System Name                          Renovated Yes No       Yes      No

Army Systems (cont’d)
24 MTMC7            Asset Management System                   X       X                    X
25 MTMC7            CONUS Freight Management System           X             X              X
          7
26 MTMC             Integrated Booking System                 X       X                    X
27 MTMC7            Integrated Computerized Deployment        X       X            X
                    System
28 MTMC7            Worldwide Port System                     X             X              X
29 PEOC3S8          AFATDS A97                                X             X      X
30 PEOC3S8          Enhanced Switch Operations Program        X       X                    X
31 PEOC3S8          Global Command and Control System -       X       X                    X
                    Army
32 PEOC3S8          Global Command and Control System -       X       X                    X
                    Army
33 PEOC3S8          Integrated Meteorological System          X       X                    X
                    (IMETS) Block II
34 PEOC3S8          Joint Collection Management Tools         X             X              X
35 PEOC3S8          Airborne Reconnaissance Low -             X             X              X
                    COMINT
36 PEOIEW9          Airborne Reconnaissance Low -             X             X              X
                    Multifunction
37 PEOIEW9          Guardrail/Common Sensor System 1,         X             X              X
                    AN/USD-9D
38 PEOIEW9          Guardrail/Common Sensor System 3          X             X              X
                    AN/USD-9B
39 PEOIEW9          Guardrail/Common Sensor System 4,         X             X              X
                    AN/USD-9C
40 PEOSTAMIS10 Standard Army Ammunition System-               X       X            X
                    Modernization
41 PEOSTAMIS10 Standard Army Maintenance System - 1           X             X              X
                    & 2 Rehost (TACCS Replacement)
42 PEOSTAMIS10 Standard Army Retail Supply System             X       X                    X
                    Gateway
43 PEOSTAMIS10 Standard Army Retail Supply System             X             X              X
                    Level 1 Objective
44 PEOSTAMIS10 Standard Army Retail Supply System -           X       X                    X
                    2AD
45 PEOSTAMIS10 Transportation Coordinators Automated          X             X              X
                    C2 Information System

                     Total Army                              45       25    20     9      36




Footnotes/Acronyms defined on pages 17 and 18


                                            12
                                                                          Risk
     Component                                              Contractor Assessment Reaccreditation
     Organization System Name                               Renovated Yes      No  Yes     No

Navy Systems

46   NAVAIR11    AN/TPX-42A(V) Air Traffic Control             X               X            X
                 Direct Altitude and Identity Readout
47   NAVAIR11    Integrated Voice Communications               X               X            X
                 Switching System (IVCSS)
48   NAVAIR11    Airfield Lighting Control System              X               X            X
                 (AFLICS)
49   NAVAIR11    AN/ASM-608 IMUTS                              X               X            X
50   NAVAIR11    Theater Mission Planning Center               X               X            X
51   NAVAIR11    Afloat Planning System                        X               X            X
52   NAVAIR11    Joint Service Imagery Processing System-      X               X            X
                 NAVY
53   NAVAIR11    Tactical Automated Mission Planning           X               X            X
                 System
54   NAVAIR11    EA-6B TSQ-142 (V5/6) TEAMS Software           X               X            X
                 Release 205.04
55   NAVSEA12    Navigation Command and Control System         X               X            X
                 (NAV/C2)
56   NAVSEA12    Cooperative Engagement Capability             X               X            X
                 Baseline 2
57   NAVSEA12    Advance Combat Direction System BLK 1         X               X            X
                 (LHD 1, CV 67,69 ONLY)
58   NAVSEA12    Advance Signal Processor                      X               X            X
59   NAVSEA12    AN/BSY-2 Submarine Combat System              X               X            X
60   NAVSEA12    CCS REV 5.5                                   X               X            X
61   NAVSEA12    CCS REV 6.3                                   X               X            X
62   SPAWAR13    Ported SNAP I Shipboard Non-Tactical          X        X            X
                 ADP Program
63   SPAWAR13    NALCOMIS IMA                                  X        X            X
64   SPAWAR13    NALCOMIS OMA                                  X        X            X
65   SPAWAR13    Food Service Management System                X        X            X
66   SPAWAR13    Automated Travel Order System                 X        X            X
67   SPAWAR13    Aviation Maintenance Material                 X        X            X
                 Management
68   SPAWAR13    TLMS                                          X        X            X
69   SPAWAR13    NTCSS-DANA Desk Top Environment               X        X            X
70   SPAWAR13    Ported Snap II Shipboard Non-Tactical         X        X            X
                 ADP Program
71   SPAWAR13    Multilevel Mail Server                        X               X            X
72   SPAWAR13    NOVA                                          X               X            X
73   SPAWAR13    Integrated Submarine Automated                X               X            X
                 Broadcast Processing System - ASHORE

Footnotes/Acronyms defined on pages 17 and 18


                                              13
                                                                            Risk
     Component                                                Contractor Assessment Reaccreditation
     Organization System Name                                 Renovated Yes     No   Yes     No

Navy Systems (cont’d)
74   SPAWAR13       NATO Interoperable Submarine                 X              X             X
                    Broadcast System
75   SPAWAR13       Integrated Verdin Transmit Terminal          X              X             X
76   NAVSUP14       Uniform Automated Data PRCSS SYS             X              X             X
77   NAVSUP14       Residual Asset Management                    X              X             X
78   NAVSUP14       Advanced Tracebility & Control-Navy          X              X             X
79   NAVSUP14       UICP Transition                              X              X             X

                    Total Navy                                   34       9     25     9      25

Air Force Systems
80   AFMC15         Air Force Key Data Management                X              X             X
                    System
81   AFMC15         Joint Tactical Information Distribution      X              X             X
                    System
82   AFMC15         Portable Flight Planning Software            X              X             X
83   AFMC15         Comprehensive Engine Management              X        X            X
                    System
84   TRANSCOM16     Analysis of Mobility Platform                X        X                   X
85   TRANSCOM16     Defense Medical Regulating Information       X              X      X
                    System
86   TRANSCOM16     Automated Patient Evacuation System          X              X      X

87   TRANSCOM16 Global Transportation Network                    X              X             X
88   AFMC15     Execution and Prioritization of Repairs          X        X                   X
                Support System
89   AFMC15     Item Manager Wholesale Requisition               X              X             X
                Process
90   AFMC15     Sustainability Assessment Module                 X              X             X
91   AFMC15     Combat Ammunition System - Air                   X        X            X
                Logistics Center
92   AFMC15     Combat Ammunition System (Base                   X        X            X
                Level)
93   AFMC15     Combat Ammunition System -                       X        X            X
                Command
94   AFMC15     Combat Ammunition System Deployable              X        X            X
95   AFMC15     Cargo Movement Operations System                 X              X             X

                    Total Air Force                              16       7     9      7       9




Footnotes/Acronyms defined on pages 17 and 18


                                               14
                                                                         Risk
    Component                                              Contractor Assessment Reaccreditation
    Organization System Name                               Renovated Yes No Yes           No

Marine Corps Systems
96 USMC17       Contract Divisions Document                    X             X             X
97 USMC17       Publication System                             X             X             X
          17
98 USMC         Item Applications                              X             X             X
99 USMC17       MCLB Automated Information System              X             X             X
                Transition Router
100 USMC17      Material Return Program                        X             X             X
101 USMC17      Automated Procurement                          X             X             X
102 USMC17      Technical Data Management                      X             X             X
103 USMC17      Provisioning Subsystem                         X             X             X
104 USMC17      Mechanization of Warehouse and Storage         X             X             X
105 USMC17      Transportation Management System               X             X             X
106 USMC17      Store Accounting Subsystem                     X             X             X
107 USMC17      Allotment Accounting Subsystem                 X             X             X
108 USMC17      Asset Tracking for Logistics and Supply        X             X             X
                System
109 USMC17      Essex Replacement System                       X             X             X

                 Total Marine Corps                           14       0     14    0      14

Defense Information Systems Agency
110 D218         DISN-Telecommunications Management            X             X             X
                 System-C
111 D319         Defense Satellite Communications System       X       X           X
112 D319         Automatic Digital Network                     X             X             X
113 D319         Bosnia C2 Augmentation                        X       X                   X
       19
114 D3           Defense Red Switch Network                    X       X           X
115 D319         Enhanced Pentagon Capability                  X       X           X
116 D319         Defense Switched Network                      X             X     X
117 D319         Defense Information Systems Network-          X             X     X
                 Integrated Digital Network Exchange
118 D319         Joint Spectrum Management System              X       X           X
                 (JSMSw)
119 D319         Frequency Resource Records System DCF         X       X           X
120 D319         Frequency Resource Records System CCF         X       X           X
121 D620         Global Command and Control System             X       X           X
                 V.30
122 D620         Global Command and Control System             X       X           X
                 JOPES Editing Tools
123 D620         GSSC of Resources and Training System         X       X           X
       20
124 D6           National C2 System-Massage Handler            X       X                   X



Footnotes/Acronyms defined on pages 17 and 18


                                              15
                                                                            Risk
      Component                                               Contractor Assessment   Reaccreditation
      Organization   System Name                              Renovated Yes     No     Yes     No

Defense Information Systems Agency (cont’d)
125 D620         Anti-Drug Network                               X       X                     X
126 D620         Status of Readiness and Training                X       X             X
127 D620         Common Operating Picture UB 3.0.2.5             X              X      X
128 DISA21       DISA Internal Network                           X       X             X
129 JECPO22      DoD Electronic Business Exchange                X       X             X
130 JITC23       Corporate Database for Windows                  X              X              X
         23
131 JITC         Database Commitment Accounting System           X              X              X
132 JITC23       Microcomputer Message Analysis System -         X              X              X
                 PJIES

                  Total Defense Information                      23      15     8      15       8
                  Systems Agency

Defense Logistics Agency
133 DSDC24        Standard Automated Management Material         X              X              X
                  (PEDE)
134 DSDC24         Mechanization of Contract Administration      X              X              X
                  Services
135 DSDC24        Alerts                                         X              X              X
136 DSDC24        Base Operations Support System                 X              X              X
137 DSDC24        Distribution Standard System                   X              X              X
138 DSDC24        Defense Reutilization and Marketing            X              X              X
                  Automated Information System
139 DSDC24        Defense Fuels Automated Management             X              X              X
                  System

                  Total Defense Logistics Agency                 7       0      7       0       7

Washington Headquarters Service Systems
140 C&D25      Correspondence Control System                     X              X              X
141 C&D25      Directives Issuance Tracking System               X              X              X
        26
142 P&S        Adjucation Facility Tracking System               X              X              X
143 P&S26      Personnel & Security Database Application         X              X              X
144 P&S26      Senior Executive Service Titles                   X              X              X
145 P&S26      Military Personnel Tracking System - WHS          X              X              X
146 RE&F27     Administrative Assignment Rental                  X              X              X
               Management System/ Rental System
147 RE&F27     Contract Guard Service                            X              X              X




Footnotes/Acronyms defined on pages 17 and 18


                                                16
                                                                     Risk
       Component                                     Contractor   Assessment Reaccreditation
       Organization   System Name                    Renovated    Yes    No   Yes     No

Washington Headquarters Service Systems (cont’d)

148   RE&F27      Day Care Tracking System               X               X             X
149   RE&F27      Emergency Contract System              X               X             X
150   RE&F27      Fund Analysis System                   X               X             X
151   RE&F27      Inventory Property Management          X               X             X
                  Information System
152   RE&F27      Parking Control Applications           X               X             X
153   RE&F27      Personnel Action Tracking System       X               X             X
154   RE&F27      Phone Record Tracking System           X               X             X
155   RE&F27      Pulaski Parking Permit Tracking        X               X             X
                  System
156   RE&F27      Reimbursable Project Worksheet         X               X             X
157   RE&F27      Reimbursable Work Orders               X               X             X
158   RE&F27      SEMD Tracking Systems                  X               X             X
159   RE&F27      Integrated Property Management         X               X             X
                  Information System

                  Total Washington Headquarters         20         0     20     0      20
                  Services


                  Total DoD Systems                     159        56   103     40    119




        Component Organization Descriptions

        1.       CCSLA     CECOM Communications Security Logistics Agency
        2.       CECOM     Communications Electronics Command
        3.       ILSC      Industrial Logistics Systems Center
        4.       LOGSA     Logistics Support Activity
        5.       LSSC      Logistics Systems Support Center
        6.       STRICOM   Simulation, Training & Instrumentation Command
        7.       MTMC      Military Traffic Management Command
        8.       PEOC3S    Program Executive Office for Command, Control, and
                            Computers Systems
        9.       PEOIEW    Program Executive Office
        10.      PEOSTAMIS Program Executive Office Standard Army Management
                            Information Systems
        11.      NAVAIR    Naval Air Command
        12.      NAVSEA    Naval Sea Command
        13.      SPAWAR    Space & Naval Warfare Systems Command
        14.      NAVSUP    Naval Supply Systems Command
        15.      AFMC      Air Force Materiel Command


                                               17
16.   TRANSCOM Transportation Command
17.   USMC     United States Marine Corps
18.   D2       Command, Control, Communications, Computer and
                Intelligence
19.   D3       Operations
20.   D6       Engineering and Information
21.   DISA     Defense Information System Agency
22.   JECPO    Joint Electronic Commerce Program Office
23.   JITC     Joint Interoperability Test Command
24.   DSDC     Defense Logistics Agency Systems Design Center
25.   C&D      Correspondence & Directives
26.   P&S      Personnel & Security
27.   RE&F     Real Estate & Facilities




                            18
Appendix C. Techniques to Monitor Contractor
            Renovations
    We reviewed various techniques DoD Components used to control or monitor
    contractor access to the mission-critical systems. These techniques included
    access controls, configuration management, and independent validation and
    verification of software changes to prevent or detect code errors, backdoors,
    viruses, and malicious code. Results of the control techniques are discussed
    below.

Access Controls
    Access controls are the structures, policies, and procedures that provide
    reasonable assurance that computer resources are protected against
    vulnerabilities, such as unauthorized modification, disclosure, loss, or
    impairment. Access controls address logical and physical controls.

            Logical Controls. Logical controls use computer hardware and software
    to prevent or detect unauthorized access by requiring users to input user
    identification, passwords, or other identifiers that are linked to predetermined
    system access privileges.

           Physical Controls. Physical controls restrict the entry and exit of
    personnel, equipment, and media from an area, such as an office building, suite,
    data center, or room containing a local area network server. Examples of
    physical controls are cipher locks, security badges, and security guards.
    Inadequate access controls increase the vulnerability of DoD information
    systems to external and internal sources that could execute unauthorized changes
    to programs or introduce malicious code. To mitigate internal risk, access
    controls should include a requirement for a background check.

    Access Control Responses. DoD Components responded that 134 of the 159
    contractor-renovated systems had access controls. Also, DoD responded that
    personnel security background checks were completed for 121 systems.
    Because DoD Components did not always implement access controls or verify
    that background checks for the contractors were complete or up to date, the
    effectiveness of the access control was diminished.

Configuration Management
    Controls Over Y2K Modifications. DoD Components used configuration
    management to control modifications to mission-critical system hardware and
    software to ensure that systems were protected from improper modifications
    prior to, during, and after Y2K renovation. According to the DoD Y2K
    Management Plan, DoD Components were required to use configuration


                                        19
     management procedures to document all changes to information systems and
     their components. Equally important was the need for each agency to assess
     dependencies and to communicate all changes to the information systems to
     internal and external users.

     Configuration management procedures resulted in the documentation of a system
     baseline that identified information system hardware, software, firmware
     components, and external interfaces. Configuration management procedures
     also provided the foundation for future security evaluations and established a
     known reference point from which to make future accreditation decisions.

     Configuration Control Responses. DoD Components reported using
     configuration management procedures that ranged from the use of checklists,
     tools, and sign-in/out sheets to acceptance testing for 150 of the 159 contractor-
     renovated systems. Although risk mitigation is best accomplished by using
     multiple control measures, the various Component responses indicate that there
     is still a DoD-wide weakness in implementing a standard configuration
     management program. A standard configuration management program should
     consist of procedures that provide for authorizing, testing, and maintaining
     software libraries.

Independent Verification and Validation
     Independent verification and validation is an independent review of remediated
     systems to determine whether those systems were Y2K compliant. Independent
     verification and validation does not replace testing; rather, it is an independent
     review that aids in testing by detecting uncorrected fields and lines of code.
     Activities such as code scanning and virus scanning are considered to be
     independent reviews that assisted in identifying lines of codes that had the
     potential to be manipulated by internal and external threats.

             Code and Virus Scanning. Code scanning can be part of the
     independent verification and validation process to identify missed date fields,
     identify invalid date-processing logic, and validate corrected code. Code
     scanning includes sub-programs or copybooks, performing analysis to remove
     false positives, reviewing and validating suspected error, and fixing identified
     true errors. DoD Components also reported that they scanned code to detect
     viruses in contractor-renovated systems. Virus scanning, however, does not
     detect logic errors; logic errors should be detected during code scanning.

     Code Validation and Verification Responses. DoD Components responded
     that they used some form of independent verification and validation, code
     scanning, or virus detection on only 106 systems of the 159 contractor-
     renovated systems. Measures to prevent or detect code errors, viruses, or other
     malicious activities cannot provide a level of effectiveness unless used.




                                         20
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Program Analysis and Evaluation
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Deputy Assistant Secretary of Defense, Chief Information Officer
  Deputy Assistant Secretary of Defense, Security and Information Operations
     Director, Defense-wide Information Assurance Program
Assistant Secretary of Defense (Health Affairs)

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Commander, U.S. Army Materiel Command
   Commander, Army Aviation and Missile Command
   Commander, Army Simulation, Training and Instrumentation Command
   Commander, Logistics Support Activity
   Commander, Army Communications-Electronics Command
Director, Military Traffic Management Command
Inspector General, Department of the Army
Auditor General, Department of the Army
Chief Information Officer, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Commander, Naval Air Systems Command
Commander, Naval Sea Systems Command
Commander, Naval Supply Systems Command
Commander, Space and Naval Warfare Systems Command
Superintendent, Naval Postgraduate School




                                        21
Department of the Navy (con’t)
Naval Inspector General
  Inspector General, Department of the Navy (Audit/Cost Management Division)
  Deputy Naval Inspector General for Marine Corps Matters, Department of the Navy
Auditor General, Department of the Navy
Chief Information Officer, Department of Navy
Chief Information Officer, Marine Corps

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Inspector General, Department of the Air Force
Auditor General, Department of the Air Force
Chief Information Officer, Department of the Air Force


Unified Commands
Inspector General, U.S. Central Command
Inspector General, U.S. Joint Forces Command
Inspector General, U.S. Pacific Command
Inspector General, U.S. Space Command
Inspector General, U.S. Southern Command
Inspector General, U.S. Special Operations Command

Other Defense Organizations
Defense, Contract Management Agency
Director, Defense Commissary Agency
Director, Defense Contract Audit Agency
Defense, Finance and Accounting Service
Director, Defense Information Systems Agency
   Inspector General, Defense Information Systems Agency
   United Kingdom Liaison Officer, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Director, Washington Headquarters Services
Director, DoD Human Resources Activity
Inspector General, Defense Intelligence Agency
Inspector General, Defense Threat Reduction Agency
Inspector General, National Imagery and Mapping Agency




                                         22
Non-Defense Federal Organizations and Individuals
Office of Management and Budget
 Office of Information and Regulatory Affairs

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                        23
Department of the Air Force Comments




                  25
               Washington Headquarters Services
               Comments
Final Report
 Reference




Management
agreed to
remove
marking.



                                 26
     Final Report
      Reference




     Omitted
     because of
     length.
     Copies will
     be provided
     upon
     request.




     Management
     agreed to
     remove
     marking.


27
Army Military Traffic Management
Command Comments




                 28
Audit Team Members
   The Acquisition Management Division Directorate, Office of the Assistant
   Inspector General for Auditing, DoD, prepared this report.

     Thomas F. Gimble
     Mary Lu Ugone
     Wanda A. Hopkins
     Dianna J. Pearson
     Richard B. Vasquez
     JoAnn Henderson
     H. George Cherry
     Timothy Cole
     Jamal Hall
